-N

V

o; £ O' G

No.

Supreme Court, U.S.
FILED

SEP 2 2 2£23
IN THE
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

ZIYAD YAGHI,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

United States Court of Appeals for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Mr. Ziyad Yaghi
Pro se Petitioner
Reg;, No. 51771-056
F.C.I. Ray Brook
Post Office Box 900
Ray Brook, New York 12977

TABLE OF CONTENTS
Page
Opinions Below

1

Jurisdiction

1

Constitutional and Statutory
Provisions Involved

2

Statement of the Case

3

Reasons for Granting the Writ

5

Conclusion

INDEX TO APPENDICES
Appendix A

la

Appendix B

lb

Appendix C

1c

Appendix D

Id

i

TABLE OF AUTHORITIES CITED
Page

Cases
1. Barefoot v. Estelle,
463 U.S. 880 (1983)

8

2, Buck v. Davis,
580 U.S.
(2017)

8

3• Erickson v. Pardus,
551 U.S. 89 r2007l

6

4. Gideon v. Wainwright,
372 U.S. 335 (1953)

5

5. Haines v. Kerner,
404 U.S. 519 fl972)

6

6. Johnson.v._Zerbst,
304 U.S. 458"Tl938)

5

7 « Lafler v. Cooper,
566 U.S. 156(2012)

5

8. Lambright v. Stewart,
220 F.3d. 1022 (9th Cir. 2000)

8

9. Lawrence v. Chater,
516~U.S. 163 (1996)

5

10. Mathews v. Eldridge,
424 U.S. 319 (1976)

8

11. Miller-El v._Cockrell,
537 U.S. 322 (2_003)

8

12. Missouri v. Frye,
566 U.S. 131 (2012)

5

13. Morris v. Woodard,
279 F.3d. 775 (9th Cir. 2000)

8

14. Ohio Adult Parole Authority v. Woodard,
573 U.S. 272 ”("1998)
”

9

15. Padilla v. Kentucky,
599 U.S. 356 (2010)

6

16. -Ra in e s.v v~ U ni t e d^' S' tapes ,
ii

TABLE OF AUTHORITIES (Con't)
Page

Case
16. Raines v._Unit_ed States ,
423 F.2d. 526 (4th Cir. 1970)

7

17. Slack v. McDaniel,
529 U.S. 472 (2000)

8

18. Tennard v. Dretke
524”u7sr 274 (2005)

8

19. United States v. Cronic,
466 U.S. 648T1984)

8

20. United States v. Magini,
¥73 F . 2d.. 261 (~4th Cir. 1992)

6

21. United States v. Mitchell,
484 Fed. Appx. 744 (4th Cir. 2012)

7

22. United States v. Mitchell,
54f Fed. Appx. 286 (4th Cir. 2013)

7

23. United States v. Robinson,
238 Fed. Appx. 954 (4th Cir. 2007)

6

24. United States v. Woodard,
748 Fed. Appx. 498 (4th Cir. 2018)

7

iii

QUESTION(S) PRESENTED

Whether this Court should GVR the lower court's
decision denying a Certificate of Appehlability
m this case- because its denial violates principies of Due Process of law inherent in Petitioner's
Sixth Amendment right to the effective Assistance
of counsel related to the plea process

IN THE
SUPREME COURT OF THE
UNITED STATES

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Fourth
Circuit appears at Appendix A to this petition and is unpublished.
The opinion of the United States District Court for the Eastern
District of North Carolina appears at Appendix B and is unpublished.
JURISIDICTION
The date of which the United States Court of Appeals decided my
case was
A timely petition for rehearing was denied by the United States
Court of Appeals for the Fourth Circuit on April 28, 2020, and a
copy of the order denying rehearing appears at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C. Sec­
tion 1254(1).

- 1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

United States ^Constitution, Amendment V

Due Process

United States Constitution, Amendment VI - Right to Counsel
Title 28 U.S.C. §2253(c)
Title 28 U.S.C. §2255

- 2

STATEMENT OF THE CASE

On October 2,

2015, petitioner filed a pro se motion under 28

U.S.C. §2255 challenging his conviction and sentence in the United
States District Court for the Eastern District of North Carolina.
Several days later, an attorney filed a notice of appearance in the
case, and subsequently filed a memorandum supporting collateral re­
lief by leave of the court.
The government filed its opposition, in the form of a motion to
dismiss, or in the alternate, for summary judgment, along with an
appendix. Included with its opposition was a declaration from this
petitioner's trial attorney. Contained in trial counsel's declara­
tion was a misstatement concerning the plea offer presented by the
government. Consequently, due to a serious disagreement with his
habeas attorney, petitioner moved to discharge counsel and to pro­
ceed pro se.
The magistrate subsequently issued a report and recommendation
(R&R) to which pe"titroner timely objected to filing therewith his
very own declaration countering that of his trial counsel's. In the
declaration filed by petitioner, he specifically contradicted that
of his trial counsel averring thatcontent of the conversation be­
tween h'im and petitioner concerning the government's plea offer did
not include.! requiring him . to enter a plea with the government
without also cooperating.
The district court granted the government's motion for summary
judgment and denied petitioner's §2255 motion without resolving
the conflicting facts in the competing declarations of petitioner
and his counsel. (See Appendix B). The district court similarly

3

found that a certificate of appealability (COA) was not warranted
under this Court's Miller-El standard

and declined to issue a COA

in petitioner's case, (id..).. Petitioner filed a timely notice of
appeal in the district court, and acquired the assistance of coun­
sel in seeking a COA in the Fourth Circuit court of appeals.
In the informal brief filed by counsel, petitioner sought a COA
for the specific issue pertaining to the ineffective assistance of
his trial counsel, for failing to accurately communicate the terms
of the government's plea offe£~, along with two other ineffective
issues.
Acknowledging the need for a COA, a panel of the Fourth Circuit
issued a per curiam opinion that blanketly denied petitioner a COA
by a simple recitation of the general standard necessary for ob­
taining a COA. The appellate panel simply stated that after having
conducting an independent review of the record, it concluding that
petitioner had not made the requisite showing. (See Appendix A).
Petitioner moved for rehearing with suggestion for rehearing en
banc,-based on the panel decisions usurpation of his due process
rights to an opportunity to be heard by blanketly denying him a
COA. Rehearing was denied on April'28, 2019^" by the panel of appel­
late judges assigned to hear the case; (see Appendix C), and now
petitioner seeks certiorari review by this Court.

1

This Court issued an Order on March 19, 2020 extending the time
in which litigants for 90 days up to 150 days due to the COVID-19
pandemic; see Supreme Court Order Lexis 1643, making petitioner's'
petition for a writ of certiorari in this case timely if filed on
or before September 23, 2020. (See Appendix D).

4

REASON FOR GRANTING PETITION
This Court should GVR the lower court's decision
denying a Certificate of Appealability in this
case because its denial violates principles of
the Due Process of law inherent in Petitioner's
Sixth Amendment right to the Effective Assistance
of counsel related to the plea process.
It is long recognized that this Court has the power to grant,
vacate and remand (GVR) to a lower court its decision essentially
when it may be shown that such decision may have been made without
consideration of law established by this Court'. See e.g., Lawrence
v. Chater, 516 U.S. 163, 170 (1996)(reasoning that a GVR order may
issue when recent events cast substantial doubt on the correctness
of the lower court's summary disposition).
A criminal defendant has long enjoyed the right to the effec­
tive assistance of counsel under the Sixth Amendment. Gideon v.
Wainwright, 372 U.S. 335, 343 (1963)(quoting Johnson v. Zerbst,
304 U.S. 458 (1938)(stating the Sixth Amendment "stands as a con­
stant admonition that if the constitutional safeguards it provides
be lost, justice will not be done")).
This Court has extended the Sixth Amendment right to the plea
bargaining process, when a defendant does not accept a plea and
proceeds to trial. See Lafler v. Cooper, 566 U.S. 156, 163 (2012);
Missouri v. Frye

566 U.S. 131, 145 (2012). In this case, petition­

er did iust that i.e., rejected a favorable plea offer due to his
counsel's misrepresentation of the contours of the plea offered by
the government. Consequently, the actual plea offer which did not
include petitioner being required to cooperate as counsel had in­
formed petitioner he would have to do, was not revealed until his

5

attorney submitted a declaration for the government that it provid2
ed along with its answer to his §2255 motion.
Based on this revelation, petitioner filed a declaration of his
own along with his objection to the magistrate judge's report and
recommendation (R&R). However, the lower court simply did not ad­
dress the conflicting declarations of petitioer and his counsel.
Significantly, an issue similar to petitioner's was previously ad­
dressed by Fourth Circuit court of appeals. See United States v.
Robinson, 238 Fed. Appx. 954 (4th Cir. 2007).
In Robinson, the defendant presented a claim that his attorney
"failed to communicate a plea offer" which included an advantegous
factual proposal, that was not "explicitly raised...for the first
time"

until defendant's response to counsel's addfidavit filed in

"his objection to the magistrate judge's recommendation." Robinson,
at 954. The Robinson panel granted him a COA on this very issue,
then later vacated and remanded the issue to the district court
for further proceedings. Id.
Following long established Fourth Circuit law, the panel recog­
nized that "when a movant presents a colorable Sixth Amendment
claim showing disputed facts involving inconsistencies beyond the
record a hearing is mandated. _Id. (citing United States v. Magini,

2

Because petitioner was represented by counsel, he was prevent­
ed from initially challenging this revelative declaration by trial
counsel, until he discharged habeas counsel and proceeded in a pro
se capacity. Importantly, without the assistance of counsel, peti­
tioner was entitled to have his pleadings liberally construed. See
Haines v. Kerner, 404 U.S. 519 (1972); Erickson v. Pardus, 551 U.S.
¥9 (2009).

6

973 F.2d. 261 (4th Cir. 1992); Raines v. United States, 423 F.2d.
526, 530 (4th Cir. 1970)("There will remain...a category of peti­
tions, usually involving credibility, that will require an eviden­
tiary hearing in open court")).
Moreover

this principle has been recognized by the Fourth Cir-

cuit in other unpublished cases following this Court's decision in
Lafler v._Cooper

supra and Missouri v. Frye. See United States v.

Mitchell, 541 Fed. Appx. 286 (4th Cir. 2013) and United States v.
Woodard, 748 Fed. Appx. 498 (4th Cir. 2018).
In Mitchell, the Fourth Circuit granted a COA and remanded the
case for an evidentiary hearing to determine if counsel "fully con­
veyed to defendant] his options to plead guilty. See United States
v. Mitchell, 484 Fed. Appx. 744 (4th Cir. 2012). Following remand,
"the district court found that counsel had suffi ciently informed
{defendant] regarding his plea options, specifically an option to
plead guilty without cooperation with the Government." Mitchell,
/

541 Fed. Appx. 286. On a subsequent appeal, the Fourth Circuit af­
firmed the district court decision following an evidentiary hear­
ing, in which the defendant was given the opportunity to prove his
claim. Id.
In Woodard, the Fourth Circuit again granted a COA, vacating
and remanding the case on similarly consistent grounds concerning
an ineffective assistance claim based on plea negotiations, and
whether an evidentiary hearing was required. . See Woodard, supra.
Certainly, the contours of petitioner's ineffective assistance of
counsel claim in the lower courts, and the contrary ruling in the
Fourth Circuit implicates serious due process concerns.
This Court has long established that the due process concerns
7

contains the fundamental requriements of notice and the opportunity
to be heard.See Mathews v. Eldridge, 424 U.S. 319 (1976). Under
the circumstances of this case

it cannot be confidently said that

petitioner was afforded the due process of law in this case at vary­
ing stages of his criminal prosecution and collateral review process.
Especially when, in the lower rung of the ladder of the postconvic­
tion process, the law as established by this Court and followed by
lower courts explicitly support— in the least his obtaining a COA
under the modest Barefoot standard. See Morris v. Woodford, 279
F.3d. 775, 781 (9th Cir. 2000)(any claims that satisfy th[e] modest
standard must receive a COA)(quoting Lambright v. Stewart, 220 F.3d.
1022, 1027 (9th Cir. 2000)).
This Court has long assured and repeatedly admonished lower ap­
pellate courts for sidestepping or trampling upon the COA process
necessary to appeal the denial of habeas related motions under the
exceedingly low standard. See Barefoot v. Estelle, 463 U.S. 880,
n. 4 (1983)(setting the standard necessary to obtain a CPC and as­
suring that no demonstration of prevailing needed to appeal); see
also, Slack v. McDaniel, 529 U.S. 472 (2000)(applying the Barefoot
standard to the ADEPA new COA requirement); Miller-El v. Cockrell,
537 U.S. 322 (2003)(admonishing lower courts for using the COA to
denial appeals without jurisdiction); Tennard v. Dretke, 524 U.S.
274 (2005)(rejecting courts paying lipservice to principles which
apply to addressing the COA inquiry); Buck v. Davis, 580 U.S. ____
3

A litigants right to be notified of certain matters associated
with the loss of liberty at the hands of the government, necessari­
ly include being correctly informed during the plea negotiation pro­
cess. See United States v._Cronic, 466 U.S. 648, 650 (1984); Padilla
v. Kentucky, 559 U.S. 356, 373 (T010)
8

(2017)(reaffirming that at the COA stage the only question is whe­
ther an applicant meets the Barefoot standard).
It is clear that in this case, the trend

of violating a habeas

litigant's due process rights in the postconviction process must be
squarely addressed; see Ohio Adult Parole Authority v. Woodard, 523
U.S. 272, 293 (1998)(Stevens, J., concurring in part, dissenting in
part)(stating that when postconviction proceedings are established
"these proceedings must comport with due process"), and his opport­
unity to be heard must be restored through this Court's GVR power.
Therefore, based on teh foregoing petitioner seeks this Court to
grant this petition, vacate the Fourth Circuit's denial of a COA,
and remand the case to the lower court to address his Sixth Amend­
ment claim of ineffective assistance of counsel in the plea context
consistent with the law. Due to the fact that failing to do so vio­
lates clearly established due process principles which support this
petitioner's opportunity to be heard under the Sixth Amendment on
the effective assistance of counsel during the plea process.
CONCLUSION
This petition for writ of certiorari should be granted, and the
case GVR'd to the lower appellate court.
Respectfully submitted
Mr. Ziyad Yaghi
Pro se Petitioner
Reg. No. 51771-056
F.C.I. Ray Brook
Post Office Box 900
Ray Brook, New York 12977

9

